                   March 30, 2001

                   PAUL E. VOGEL
                   VICE PRESIDENT, NETWORK OPERATIONS
                    MANAGEMENT

                   KEITH STRANGE
                   VICE PRESIDENT, PURCHASING AND MATERIALS

                   SUBJECT:     Leased Trailer Deficiencies in the New York
                                Metro Area (Report Number TR-MA-01-001)

                   This management advisory report presents our observations
                   of leased trailer deficiencies in the New York Metro Area
                   (Project Number 00PA032TR001). The report identifies
                   deficiencies we observed during an audit of the safety and
                   security of the Postal Service’s leased trailer fleet.

Results In Brief   In July 2000, we observed certain trailers in the New York
                   Metro Area that appeared to be unsafe, in substandard
                   condition, and had a deteriorated appearance that could
                   reflect poorly on the Postal Service. In addition, discussions
                   with New York Metro Area officials revealed that the New
                   York Metro Area had six leased trailer contracts not
                   included on the Postal Service Headquarters list compiled
                   for potential consolidation at the national level. We provided
                   four suggestions regarding safety and the use of trailers for
                   equipment storage. Management agreed with our
                   observations and suggestions and the actions planned and
                   taken address the issues identified in the report.
                   Management’s comments in their entirety are included in
                   the appendix of this report.

Background         Hauling by trailer is one of the most cost-effective ways to
                   move large volumes of mail. Everyday, trucking contractors
                   haul trailers to and from postal facilities, and the plants of
                   large customers. The Postal Service has almost
                   15,000 trailers. Over 10,000 are leased. The Postal
                   Service spends more than $40 million per year on leased
                   trailers.
Leased Trailer Deficiencies in                                                        TR-MA-01-001
 the New York Metro Area


                                 In May 2000, we initiated an audit to evaluate the safety and
                                 security of the Postal Service’s leased trailer fleet, and to
                                 identify opportunities for cost savings. In July 2000, we
                                 visited the New York Metro Area and observed trailers that
                                 were not within our sampling population. Officials from the
                                 Distribution Networks office told us some of the trailers were
                                 acquired under a March 1999, locally negotiated, 4-year
                                 contract at a cost of $3 million per year. Management
                                 stated the contract would expire in March 2003 and was
                                 negotiated apart from the national contract because costs
                                 were significantly lower.

                                 Because the trailers we observed were in poor condition,
                                 which could compromise the safety of personnel and the
                                 mail, and their deteriorated appearance reflected poorly on
                                 the Postal Service, we decided to conduct a limited review
                                 of the trailers and the contract.

Objectives, Scope,               This report is intended to communicate the deficiencies we
and Methodology                  observed. Our objectives were to assess the safety and
                                 use of the trailer fleet. We did not audit or comprehensively
                                 review the New York Metro Area leased trailer contract, nor
                                 did we comprehensively inspect all trailers acquired under it.
                                 We are providing this report so action can be taken to
                                 correct problems we identified in July 2000, and during our
                                 follow-up visit in October 2000.

                                 We interviewed New York Metro Area officials and took
                                 pictures of some trailers to show their deteriorated
                                 appearance. We also reviewed the contract and contract
                                 files.

Safety                           In July 2000, we observed certain trailers in the New York
                                 Metro Area that appeared to be unsafe and in a
                                 substandard and deteriorated condition that could reflect
                                 poorly on the Postal Service. We brought these issues to
                                 the attention of management and in October 2000, we
                                 returned to the New York Metro Area for a follow-up visit.
                                 Officials told us that since our initial visit, they had
                                 completed trailer inspections and found that 239 of the
                                 1,300 trailers leased under the local contract were unsafe,
                                 required repair, or needed to be completely refurbished.
                                 Specifically, officials reported that trailers were up to 30-
                                 years-old, and that many had:

                                 •   Excessive rust, which reflected poorly on the Postal


                                                   2
Leased Trailer Deficiencies in                                                        TR-MA-01-001
 the New York Metro Area


                                     Service and could damage trailer structure.

                                 •   Bald tires.

                                 •   Expired inspection stickers.

                                 •   Missing load restraint systems that could cause cargo to
                                     suddenly shift during transit and cause damage to the
                                     trailer or to the mail.

                                 •   Damaged safety cross bars that could lead to personal
                                     injury by allowing vehicles to slide under the trailer.

                                 •   Rotting floorboards that could cause injury to personnel
                                     loading and unloading the trailer.

                                 Photographs of substandard trailers are illustrated in
                                 Appendix A.

                                 In addition to the unsafe conditions identified by the New
                                 York inspections, we identified the following contract related
                                 safety problems:

                                 •   The contractor was unable to provide maintenance
                                     history files, including safety compliance records, as
                                     required by the contract, which could account for the
                                     poor condition of the trailers.

                                 •   Despite unsafe, substandard appearance, many trailers
                                     had valid inspection stickers that were affixed by the
                                     trailer owner after a safety inspection was performed by
                                     the trailer owners.

                                 •   The contractor returned a “refurbished” trailer to service
                                     with a bald tire.

Suggestion                       We suggest the vice president, Purchasing and Materials:

                                 1. Require the contractor to meet contract provisions
                                    regarding trailer safety, maintenance, and appearance.

Management’s                     Management agreed with our suggestion and stated they
Comments                         would coordinate with the vice president, New York Metro
                                 Area, to ensure that locally leased trailers meet federal and
                                 Postal Service safety requirements and are maintained in a
                                 manner that reflects favorably on the Postal Service.


                                                   3
Leased Trailer Deficiencies in                                                         TR-MA-01-001
 the New York Metro Area




Suggestion                       2. Follow up to ensure contractor compliance, and if none,
                                    consider cancellation of the contract.

Management’s                     Management agreed with our suggestion. Management
Comments                         stated that 300 trailers had been completely refurbished and
                                 now meet safety standards; an additional 173 trailers had
                                 been inspected and returned to the contractor because they
                                 were unacceptable, and that the Postal Service was
                                 continuing to inspect trailers and remove them from
                                 inventory if they did not meet safety or appearance
                                 standards.

Evaluation of                    Management’s comments are responsive to our
Management’s                     observations and suggestions. We believe the actions
Comments                         taken and planned should correct the issues identified in our
                                 report.

Trailer Use                      In addition to safety issues, discussions with New York
                                 Metro Area officials revealed that the New York Metro Area
                                 had six leased trailer contracts not included on the Postal
                                 Service Headquarters’ list compiled for potential
                                 consolidation at the national level. The six contracts
                                 involved a total of 2,461 trailers. Officials stated that since
                                 our initial July 2000 visit to the New York Metro Area, they
                                 had performed a survey of trailer usage and identified
                                 1,023 trailers, or more than 41 percent of trailers they
                                 leased for transportation, that were being used for
                                 equipment storage. Officials stated they believed this
                                 situation indicated facilities were hoarding excess
                                 equipment, had inadequate storage, and were paying for
                                 trailers not needed.

Suggestion                       We suggest the vice president, Network Operations
                                 Management:

                                 3. Evaluate equipment and storage requirements in the
                                    New York Metro Area.




                                                    4
Leased Trailer Deficiencies in                                                          TR-MA-01-001
 the New York Metro Area


Management’s                     Management agreed with our suggestion and stated the
Comments                         New York Distribution Network manager would take
                                 immediate steps to correct long-standing problems with mail
                                 transport equipment and equipment storage, including a
                                 review of all mail transport equipment standing orders. This
                                 should allow them to reduce the number of orders, as well
                                 as, the number of trailers used to store mail transport
                                 equipment.

Suggestion                       4. Prohibit storing equipment in trailers leased for
                                    transportation.

Management’s                     Management agreed with our suggestion and stated that
Comments                         local operating guidelines for using trailers to store
                                 equipment were not sufficient, and that management would
                                 reestablish guidelines to reduce the storage of mail
                                 transport equipment in trailers.

Evaluation of                    Management’s comments are responsive to our
Management’s                     observations and suggestions. We believe the actions
Comments                         taken and planned should correct the issues identified in our
                                 report.

                                 We appreciate the cooperation and courtesies provided by
                                 your staff during the review. If you have any questions or
                                 need additional information, please contact Joe Oliva,
                                 director, Transportation, or me at (703) 248-2300.



                                 Debra S. Ritt
                                 Assistant Inspector General
                                  for Business Operations

                                 Attachment

                                 cc: Anthony M. Pajunas
                                     J. Dwight Young
                                     John R. Gunnels




                                                   5
Leased Trailer Deficiencies in                                                TR-MA-01-001
 the New York Metro Area


                       APPENDIX A. PHOTOS OF POSTAL SERVICE
                                  LEASED TRAILERS




              Picture 1: Trailer with excessive rust and damaged cross bar that
                         protects vehicles from sliding under the trailer.




                                             6
Leased Trailer Deficiencies in                                                    TR-MA-01-001
 the New York Metro Area




             Picture 2: Trailer with excessive rust that reflects poorly on the
                        Postal Service.




                                               7
Leased Trailer Deficiencies in                                              TR-MA-01-001
 the New York Metro Area




           Picture 3: Trailer with damaged door unfit for transportation.




                                              8
Leased Trailer Deficiencies in                                                 TR-MA-01-001
 the New York Metro Area




         Picture 4: Trailer with damaged and missing load restraint system
                    panels on the sides of trailer, which are used to secure
                    mail or other cargo.




                                             9
Leased Trailer Deficiencies in                                               TR-MA-01-001
 the New York Metro Area




                                 Picture 5: Trailer with inside bald tire.




                                                10
Leased Trailer Deficiencies in                                                TR-MA-01-001
 the New York Metro Area




           Picture 6: Trailer used to store empty mail transport equipment. Also note
                      rotting floorboards and excessive rust.




                                            11
Leased Trailer Deficiencies in                                TR-MA-01-001
 the New York Metro Area


                          APPENDIX B. MANAGEMENT’S COMMENTS




                                       12
Leased Trailer Deficiencies in        TR-MA-01-001
 the New York Metro Area




                                 13
